No. 19-414

Supreme Coutct of the United States

MEDTRONIC, INc.,
Petitioner,
v.
Mark A. Barry, M.D.,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES CouRT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the MoTION FoR LEAVE TO
FILE AND BRIEF OF THE R STREET INSTITUTE AS AMICUS CURIAE IN SUPPORT OF
THE PETITION contains 4,322 words, exempting parts of the document that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

   

Dated: October 28, 2019
CHARLES DUAN
R STREET INSTITUTE

1212 New York Ave NW Ste 900
Washington DC 20005

(202) 525-5717
eduan@rstreet.org

Counsel for amicus curiae
